IRREGULARITIES INVOLVING ALASKA 

    NATIVE TECHNOLOGIES, LLC 




           Report Number: 10-11 

         Date Issued: April 29, 2010 

             u.s. Small Business Administration
             Office of Inspector General                         Memorandum
     To:     Joseph G. Jordan                                                            Date:   April 29, 2010
             Associate Administrator, Government Contracting
             and Business Development

             Jess B. Knox
             Associate Administrator, Office of Field
             Operations
             lsi Original Signed 

  From:      Debra S. Ritt 

             Assistant Inspector General for Auditing 


Subject: 	   Irregularities Involving Alaska Native Technologies, LLC
             Report No. 10-11

             The purpose of this memorandum is to share with you information, which suggests
             that Alaska Native Technologies, LLC (ANT) I-an 8(a) participant-is not
             owned and controlled by its disadvantaged owner, and that ANT's non­
             disadvantaged owner has other business interests that conflict with his managerial
             duties at ANT. Additionally, the propriety of fees charged ANT by one of the
             non-disadvantaged owner's companies and the ability of this owner to approve his
             own company's invoices for payment are in question. The OIG performed a
             limited review of ANT in response to a referral from the Defense Contract Audit
             Agency (DCAA) about billing irregularities and ANT's apparent concealment of
             the extent of the non-disadvantaged owner's involvement with the firm.

             To address the issues raised in the complaint, we reviewed ANT's records,
             including its 8(a) application, annual audited financial statements, and other
             documentation from SBA's 8(a) files. We also reviewed information obtained
             from representatives of ANT and the Native Village of Eyak, and various public
             websites. We interviewed individuals from SBA's Office of Business
             Development and the Alaska District Office, and reviewed SBA 8(a) regulations
             and procedures.


             IOn December 21 , 2009, Alaska Native Technologies, LLC formally amended its Articles of Organization to change
               the name of the company to ANT, LLC. However, the company continues to participate in the 8(a) program under
               the name, Alaska Native Technologies, LLC.
                                                                                                                      2


ANT was formed in January 2003 by Patrick Simpson, a non-disadvantaged
individual, as a spin-off division of his research and development company
(Scientific Fishery Systems, Inc.) for his defense contract business. ANT is
51-percent owned by the Native Village of Eyak through its holding company,
Alaska Native General Services, LLC 2 (ANGS) and 49-percent owned by
Skookum Technologies, Inc.-another business for which Mr. Simpson is the
majority owner.

Our review identified irregularities regarding the formation of ANT, indicating
that Patrick Simpson, the non-disadvantaged owner of Skookum, may be
controlling ANT and operating it for the benefit of his defense contract business.
Mr. Simpson also entered into multiple business arrangements that allowed him to
capitalize on the firm's 8(a) status and to profit through services performed for
ANT by other companies that he owned. Further, Mr. Simpson was involved in
managing the day-to-day activities of ANT and, through management services
performed by Skookum for ANT, had control over the payment of invoices that
were billed to ANT by other companies he owned. Consequently, DCAA
identified irregularities in fees invoiced and paid by Skookum. Following is a
summary of the red flags noted by DCAA and our office that require management
attention.

Irregularities in the Establishment of ANT and its Application to the Sea)
Program

     1. 	 ANT was formed with no tangible assets and with no cash on its books.
          Instead, the firm was established with [FOIA ex. 4] of goodwill 3 that was
          transferred to ANT by Skookum and ANGS. Annual audited financial
          statements for ANT prepared from October 2003 to September 2008 do not
          reflect the [FOIA ex. 4] of goodwill used to establish ANT.

     2. 	 The tribe's ownership interest in ANT was conveyed through a
          Memorandum of Understanding between ANGS and Skookum. Although
          ANGS purchased [FOIA ex. 4] of goodwill from Skookum that it then
          transferred to ANT, the purchase was made without any exchange of funds.
          Instead, ANGS agreed to pay Skookum the [FOIA ex. 4] from its share of the
          future profits of ANT. Skookum provisionally forgave ANGS' debt on the
          same day that the [FOIA ex. 4] debt was incurred. The two parties agreed that


2 In March 2004, the holding company' s name was changed from Alaska Native Government Services, LLC to Alaska
  Native General Services, LLC.
3 According to Generally Accepted Accounting Principles, goodwill is that portion of the purchase price for a business
  that is related to the intangible value of the company, which may be due to a particularly favorable location; or the
  business' reputation in the community; or the quality of its employer and employees. It is calculated by subtracting
  the value of all net assets received upon purchase of the business from the purchase price.
                                                                                   3


   if ANT was dissolved with any amount of the [FOIA ex. 4] debt outstanding,
   ANGS would not owe Skookum anything further, regardless of the actual
   debt balance.

3. 	 Mr. Simpson did not offer and was not required to enter into a covenant not
     to compete, which would have prevented him from taking his goodwill
     (i.e., his expertise and contacts) elsewhere and using it to do business as a
     competitor of ANT.

4. 	 The financial statements of ANT do not recognize the shared ownership
     arrangement between Skookum and ANGS. For example, owner's equity
     is not divided into separate capital accounts for each owner on the financial
     statements of ANT. Further, ANT's 2007 financial statements reported a
     related party transaction between ANGS and ANT, which should not have
     been classified in this manner if ANGS was an owner. According to
     Generally Accepted Accounting Principles, distributions to owners reduce
     their respective capital accounts, and therefore, are not treated as related
     party transactions that are expensed against operations.

5. 	 Although all of Eyak's tribal business is conducted by Tribal Council vote
     and resolution, the Council President told us that no resolution related to
     purchasing an ownership interest in ANT existed, and that the
     Memorandum of Understanding was the only document supporting the
     decision. Further, neither ANGS nor ANT was included on the list of
     investments supporting the tribe's 2006 financial statements presented to
     the Tribal Council in January 2007.

6. 	 Mr. Simpson transferred key employees from Scientific Fishery to ANT to
     serve as ANT's General Manager and Chief Systems Engineer.
     Mr. Simpson also novated one of Scientific Fishery's defense contracts to
     ANT.

7. 	 Despite the transfer of two Chief Engineers to ANT, the firm was unable to
     provide SBA with the engineering credentials necessary to support a
     primary North American Industrial Classification System (NAICS) Code of
     541330 (Engineering Services) when it applied to the 8(a) program in
     December 2003. As a result, ANT resubmitted its 8(a) application in
     January of2004 under the NAICS code 541512 (Computer Systems Design
     Services).

   Current Ownership Status Needs to Be Examined
                                                                                     4


   8. 	 Evidence suggests that the disadvantaged owner, Alaska Native General
        Services, may no longer exist. A current Dun and Bradstreet Report stated
        that as of November 23,2007, operations for Alaska Native General
        Services at its designated location could not be confirmed. In addition, a
        search of the Alaska State Corporations' website showed that Alaska
        Native General Services had not made biennial filings with the Alaska
        Department of Commerce since November 9, 2005. Finally, the Federal
        Employer Identification Number (FEIN) 02-0653329 provided to SBA for
        tax verification of Alaska Native Government Services (on Form 4506) and
        reported on ANT's 1065 Partnership Return could not be located in the
        FEIN database, which contains more than 12 million numbers. The data
        base contained no records for either Alaska Native Government Services or
        Alaska Native General Services.

Mr. Simpson Was Heavily Involved in the Day-to-Day Management of ANT

  9. 	 Although SBA approved a business partner of Mr. Simpson as the General
       Manager of ANT, it appears that Mr. Simpson was heavily involved in
       managing the day-to-day activities of ANT. ANT stated that Mr. Simpson
       was its Director due to company oversight responsibilities passed onto
       Mr. Simpson by the Village of Eyak. Further, DCAA's review of 1,500 of
       Mr. Simpson's emails showed that he was involved with employee
       clearances, timecards, and other operational issues, which are consistent
       with performing as a Director.

  10. 	 Mr. Simpson obligated ANT to lease payments by signing leases for office
        space as either its "President," "Director," or "member."

  11. 	 Mr. Simpson signed ANT's tax returns as "President" or "Director."

  12. 	Although non-disadvantaged individuals are allowed to provide
       management services to a tribally-owned concern with SBA's approval,
       such an approval was not sought from or granted by SBA for Mr. Simpson.

  13. 	 In addition to his Director role at ANT, Mr. Simpson is also the President
        of Scientific Fishery, and owner of RV Montague, Skookum, PKS
        Consulting, Inc., P&P Properties, LLC, and 6100 A Street, LLC.

  Mr. Simpson's Other Business Interests Conflicted with His Management
  of ANT

  14. 	Although members, directors, and officers of a tribally-owned firm are
       precluded from having other business interests that conflict with the
                                                                                   5


      management of the concern, Mr. Simpson entered into business
      arrangements with ANT on behalf of other companies that he owned.
      According to ANT's audited financial statements, from October 2003
      through September 2008, Mr. Simpson:

       • 	 rented equipment to ANT through a company he owned, called P&P
           Properties, LLC;

       • 	 rented office space to ANT through another one of his companies,
           6100 A Street;

       • 	 provided subcontracting services to ANT through his company,
           Scientific Fishery;

       • 	 provided consulting services to ANT through his company, PKS
           consulting;

       • 	 provided professional services to ANT through his company,
           Skookum, including the processing of payroll, accounts payable, and
           accounts receivable.

  15. 	According to DCAA, Mr. Simpson also leased the exclusive use of his boat
       (the Research Vessel Montague) to ANT.

  16. 	 Originally ANT used a credit card that actually belonged to Mr. Simpson.
        The bill was then either paid directly by ANT or Mr. Simpson filed an
        expense report with a copy of the bill for reimbursement.

  17. 	 In October 2003, ANT signed a promissory note supporting a [FOIA ex. 6, 7C]
        loan that Simpson made to ANT. However, ANT's comparative audited
        financial statements for the years ending in September 30, 2004 and
        September 30, 2005 reported that ANT borrowed [ex. 6, 7C] from Mr.
        Simpson during fiscal year 2004. We reviewed all of ANT's board minutes
        from ANT's inception through December 2008 and the loan for [ex. 6, 7C]
        was the only loan to Mr. Simpson discussed and voted on by the board.

Potential Improper Fees Charged ANT by One of Mr. Simpson's Other
Businesses

  18. 	As indicated above, as majority owner of Skookum, Mr. Simpson was in a
       position to process invoices sent to ANT by other companies he owned
       that were performing work for ANT.
                                                                                                           6


     19. 	 In 2008, DCAA questioned the validity of$124,000 of fees paid to PKS
           Consulting for consulting services supposedly provided to ANT on one
           contract. Mr. Simpson's FY 2006 average of 140 hours of consulting
           services per month on this cost-type contract may have been excessive as
           Mr. Simpson had little time to perform these services, given his role as
           ANT Director, President of Scientific Fishery, and as owner of RV
           Montague and Skookum. DCAA also reported a lack of documentation
           supporting these fees. Further, Mr. Simpson appeared to be managing the
           day-to-day activities of ANT that were unrelated to providing ANT with
           systems engineering expertise.

CONCLUSION

Our review disclosed a number of irregularities representing a questionable
framework under which ANT was organized and continues to operate. The most
significant of these involves an agreement signed by Mr. Simpson and the
President of the Tribal Council that has caused the tribe that owns ANT to
effectively retain only 25 percent of its net profits from 8(a) contract awards. 4
Furthermore, Mr. Simpson and his other companies earn significant fees from
ANT for rent and other services. As a result, it appears that ANT's primary
purpose is to benefit Mr. Simpson, which is contrary to what Congress intended
when it allowed firms owned by Indian tribes to participate in the 8(a) program.
We believe that SBA needs to take action to protect the interest of the Agency and
the 8(a) program.

RECOMMENDATIONS

We recommend that the Associate Administrator for Government Contracting and
Business Development:

1. 	 Determine whether Alaska Native Technologies, LLC currently meets
     eligibility requirements for the 8(a) program, in light of the irregularities
     identified, and if not, initiate termination from the 8(a) program.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

On March 8, 2010, we provided a draft report to SBA's Office of Government
Contracting and Business Development for comment. On April 8, 2010, the

4   SBAlOrG Report No. 10-07, Regulations Relating to Unconditional Ownership Requirements for Indian Tribes,
    January 2010 .
                                                                                  7


Associate Administrator for the Office of Government Contracting and Business
Development provided written comments, which are contained in their entirely in
Appendix I.

The Associate Administrator agreed with the recommendation and stated that the
Office of Government Contracting and Business Development will conduct a
thorough review of Alaska Native technologies, LLC to determine the firm's
compliance with 8(a) Business Development Program rules and regulations. The
Associate Administrator emphasized that SBA will pursue appropriate action if the
8(a) firm is found to be ineligible for the 8(a) Business Development Program.

The Associate Administrator's comments were responsive to the recommendation.


ACTIONS REQUIRED

Please provide your response to the recommendation on the attached SBA Form
1824, Recommendation Action Sheet, within 30 days from the date of this report.
Your response should identify the specific action taken or planned for the
recommendation and the target date for completion.

We appreciate the courtesies and cooperation of the Small Business
Administration during this audit. If you have any questions concerning this report,
please call me at (202) 205- [ex. 2] or Riccardo R. Buglisi, Director, Business
Development Programs Group at (202) 205- [ex. 2]
 APPENDIX I. 	 MANAGEMENT COMMENTS                                                                         8
          au,f



t3
.,~
•;,
  +:
      'N,.T....-<:
                                       U.S.   SM,\LL BUSINESS ADMINISTRA.TION
                                                W.... SHINGTON, D.C. 20.. 16




           MEMORANDUM

           DATE: 	                    April 8, 2010

           TO: 	                       Debra S. Ritt
                                       Assistant Inspector General for Auditing
                                      .Office of Inspector General

           FROM:                      Joseph G. Jordan    I"    [FOIA ex. 6]
                                      Associate AdminiJr'to;1
                                      01&e of Gevemment Contracting;md Business Development
                                       [FOIA ex. 6]
           THROUGH:                    osqjb P. Loddo               .

                            fa
                              !   ,

                                      J\ssociate Administrator
                                      Office of Business Development

            SUBJECl": 	               Response to Draft Audit Report on "Irregularities Involving Alaska
                                      Native Technologies, LLC" (Project No. 9008A)

           Thank. you for the opportunity to comment on the draft audit report issued March 8, 20 I o.
           entitled, "Irregularities Involving AJaska Native Technologies, LLC."

           We have reviewed the draft audit report and concur with your office's recommendation
           that the Office of Govemment Contracting and Business Development determine the
           'eli81'bility status of Alaska Native Technologies, LLC in light of the areas of potential
            concern.. Please be assured that we Will conduct a thorough review of Alaska Native
            Technologies, LLC to determine the firm's compliance with 8(a) Business Development
            Program rules and regulations. Appropriate action will be pursued if Alasb Native
            Technologies, LLC is found to be ineligible for the 8(a) Business Development Program.

           We look forward to working with the Office of Inspector General as we continue to
           improve program delivery and strengthen our oversight of the 8(a) Business
           Development Program.
